                 U.S. Department of Agriculture

                    Office of Inspector General
                     Financial & IT Operations




       Audit Report

Commodity Credit Corporation’s
   Financial Statements for
  Fiscal Years 2005 and 2004




                       Report No. 06401-20-FM
                               November 2005
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250
November 9, 2005



REPLY TO
ATTN OF:      06401-20-FM

TO:           Board of Directors
              Commodity Credit Corporation

              Kristine Chadwick, Controller
              Commodity Credit Corporation

ATTN:         T. Michael McCann, Director
              Operations Review and Analysis Staff
              Office of Business and Program Integration
              Farm Service Agency

FROM:         Robert W. Young       /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Commodity Credit Corporation’s Financial Statements
              for Fiscal Years 2005 and 2004


This report presents the auditors’ opinion on the Commodity Credit Corporation’s (CCC)
principal financial statements for the fiscal years ending September 30, 2005 and 2004. Reports
on CCC’s internal control structure and its compliance with laws and regulations are also
provided.

KPMG Peat Marwick LLP, an independent certified public accounting firm, conducted the
audits. We monitored the progress of the audits at all key points, reviewed the workpapers, and
performed other procedures, as we deemed necessary. We determined the audits were conducted
in accordance with generally accepted auditing standards, Government Auditing Standards
(issued by the Comptroller General of the United States), and the Office of Management and
Budget Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.”

It is the opinion of KPMG Peat Marwick LLP, that the financial statements present fairly, in all
material respects, CCC’s financial position as of September 30, 2005 and 2004; and its net costs,
changes in net position, budgetary resources, and reconciliation of net costs to budgetary
obligations for the years then ended, in conformity with generally accepted accounting
principles.
Board of Directors et al.                                                                   2


The KPMG Peat Marwick LLP report on CCC’s internal control structure over financial
reporting identified six reportable conditions. Specifically, KPMG identified weaknesses in
CCC’s:

   •   Information security controls;
   •   financial system functionality and related processes;
   •   budget execution processes;
   •   financial accounting and reporting policies and procedures;
   •   producer monitoring procedures; and
   •   management’s review procedures related to the development, implementation, and
       maintenance of credit reform cash flow models.

KPMG considered the first four reportable conditions to be material weaknesses. The results of
KPMG’s tests of compliance with laws and regulations disclosed instances of noncompliance
with the Federal Information Security Management Act and the Federal Financial Management
Improvement Act of 1996.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
